                                                                                            MAY , 1986

                                                                                            CONTROL
                                                                                                      -#P09.. 86.. 00051




                                             MEDICARE
                           PATIENT DENIAL NOTICES


HOW PA T/ENTS ARE NOT/FlED ABOUT TERM/NA T/ON OF A HOSPITAL STA


              June 12 , 1985





              Mr. Bert Smith

              3 Payne Boulevard
              Evanston ,    Proland      00001

              Dear Mr. Smith:

              The Nowhere General Hospital has reviewed the medical ser­
              vices you have received for the treatment of the ulcerations
              of your left leg        from June 1 , 1985 through June 11 , 1985.
              Your attending physician          has been advised that beginning
              June 13, 1985 further treatment of the ulcerations of your

              left leg could be safely rendered         in another setting. You
              should    discuss   with your attending physician other arrange­
              ments for any further health care you may require.
              You   will   not be responsible for payment             of the services
              which are rendered by             this   hospital from June 13, 1985
              through June 14         1985      except for payment of      deductible
              coinsurance ,    or any convenience services or            items   normally
              not covered by Medicare. If you                       to stay in the
                                                                decide
              hospital, you will be          responsible   for payment...
                                  Offi ce of the Inspector        General


The mission of the Office of               the
                                     Inspector General (OIG) is to promote the
efficiency, effectiveness and integrity         programs in  of   United Statesthe
Department of Health and Human Services (HHS). It does this by developing
methods to detect and prevent fraud , waste and                    abuse.
                                                          Created by statute
1976 , the Inspector General keeps both the Secretary and the Congress fully and
currently informed about programs or management problems              recommends  and
corrective     action.  The OIG performs its mission by conducting audits,
investigations and inspections with approximately 1 200 staff strategically
located around the country.


                                 Offi ce of Ana   lys i s   and Inspections
This report is produced by the Office of Analysis and Inspections (OAI), one of
the three major offices within the OIG. The other two are the Office of Audit
and the Office of Investigations. OAI conducts inspections which are typically,
short- term studies designed to determi ne program effectiveness , effi ciency and
vulnerability to fraud or abuse.


                                             Th is   Report
Entitled " Medicare          Patient Denial Notices " this report was prepared to determine
the extent to which inappropriate denial notices were being issued to
hospitalized patients, to analyze impact of this problem and to identify
correct i ve act i on   s.


The study was prepared by the Regional Inspector General , Office of Analysis and
Inspections      Region IX.           Participating in          this project   were   the following
peop 1 e

San Franci sco Regi 


Thomas A. Purv is (Project Leader)

Rita M. Lutticken


Headquarters Offi ce
Penni St. Hilaire

                             TABLE OF CONTENTS




                                                  Page

Major Fi nd i ngs
Introduction
   Background

   Purpose    and Approach

Findings
Conclusions
Recommendat ions

                                  MAJOR FINDINGS



BENEFICIARIES ARE ADVERSELY AFFECTED BY CURRENT DENIAL NOTICE

PROCEDURES

     They are frequent 1 y confu sed and upset by     rece i pt of den   i a 1 not   ices.

      Informal discussion ,    not formal denial notice, is the      usual prelude to
      premature di scharge.
     Many complaints       concern inadequate    discharge   planning and follow-up
      care.
     They do not                       figure ll decisions made by physicians
                      challenge " authority
     or hospital officials; they are not aware they have the right to do so.


PRO REVIEW IS NOT COMPLETE


      PROs conduct      reviews which    are   not adequately    targeted on         patient
      discharge or discharge planning.

      PROs feel that the newly- issued HCFA instructions concerning review of
      notices are adequate        for content      but do not help them identify
      premature di scharge cases.

CONSUMER ORGANIZATIONS URGE STRONGER ROLE, MORE EDUCATION


      There is a major lack of quality educational materials about PPS
      coverage. Beneficiaries and sophisticated providers alike indicate a
      high level of misconception.

      Consumer representatives have the potential for more               active roles on
      Peer Review Organizations boards.

 HOSPITAL NOTICES LACK ADEQUATE SAFEGUARDS


      Hospi ta 1 s   are tak i ng correct i ve act i on to reduce the i nc i dence
      inappropriate written denial notices but


              Until recently, frequently issued notices that contained           incorrect
              or misleading information and

              Are still routinely discharging patients without informing them of

              their rights. 

                                          INTRODUCTION


BACKGROUND

Most Medicare patients are routinely discharged from the hospital when their
physician decides that they no longer need acute care. The physician conveys
this decision verbally to the patient and the patient leaves, usually the next
day.   For such routine discharges, no formal written notification is given.
Sometimes, however , a patient or a patient' s family indicates a desire to stay
in the hospital beyond the time that acute care is deemed             necessary.
                                                                         In such
cases the hospital itself , acting though its utilization review (UR) committee,
can  deci de    to
                termi nate      an
                               acute care         stay.
                                                  When the hospital deci des
discharge the patient , the hospital is required to issue a written notice to the
patient. This is called a " denial notice. The attending physician mayor may
not concur in the hospital' s decision to issue a denial            notice. Only   a small
percentage of patients, however , receive formal , written denial notices.

The provisions for issuing denial notices are outlined in the PPS regulations.
These regul at ions contai n a number of procedural safeguards and          appeals.
                                                                            The
content of the notice must spell out these safeguards by specifically informing
the benefi    ci ary that
             It is the hospital'
             attending physician     or
                                          determination with
                                          the Peer
                                                               the
                                                                 concurrence of the
                                                   Review Organization (PRO) that the
             beneficiary no longer requires inpatient hospital care;

      2 )	   The patient will be liable for the hospital. s customary charges          for
             continued stay, beginning with the third day           after
                                                                  receipt of           the
             notice;
      3 )	   If the patient remains in the hospital after he/she becomes liable, the
             PRO will make a    formal determination       of the   medical necessity and
             appropriateness of the hospitalization;

             This formal determination is subject to a reconsideration by the PRO at

             the request of the patient , hospital or attending physician; and


      5 )	   Any monies     for continued stay       collected by thehospital will be
             refunded by the hospital , if a     finding is subsequently made that the
             patient did require continued inpatient hospital care.

In cases where the attending physician concurs with the hospital that continued
acute care is not necessary, the hospi tal may issue the noti ce di rectly. If the
attending physician disagrees with the hospital.                discharge decision the
hospital must obtain the approval of its decision             from the PRO. The notice
therefore must indicate that the PRO has reviewed the case and agrees with the
decision of the        hospital.
                            In the case where the patient actually stays in the
hospital after receipt of the notice, PRO review is mandatory. The PRO reviews
at least a 10 percent sample of cases where the patient had received the notice
and left before incurring charges. Corrective action must be initiated for all
cases where a PRO determines         that notices        have   been issued inappropriately.
These actions include education , intensified review , and sanctions.

In addition to the medical review of a hospital' s decision to issue a denial
notice, the PROs  also must review the    content               of this notice.
                                                                      Under the
requirements of HCFA Transmittal 1M 85- 3 issued in May 1985 , PROs must insure
that the notice is (1) in conformity with PPS regulatory requirements and (2)
does not contain statements which allege that the decision to discharge the
patient was made by a party other than the hospital or that the number of days
 allowed" by Medicare for a certain DRG category                 is fixed.
                                                                The PROs secure
samples of model denial notices from all hospitals in their area and review them
for conformity to the requirements. The PROs not only provide detailed comments
to the hospitals concerning irregularities in the notices, but also monitor them
to insure that correct i on       of the not ices   is imp 1 emented. After the in       i t i a 1

review of all notices issued by all hospitals, the PROs must initiate an ongoing
process for reviewing a monthly random sample of                notices. These reviews are
currently underway.



PURPOSE AND APPROACH


The purpose of th is    inspect   i on is to   determi   ne (1) the extent    of the   prob 1 em
related to hospitals issuing inappropriate or improper denial of coverage
notices to Medicare beneficiaries;             (2) the
                                           impact of improper denials
beneficiaries and     the
                     extent to which they contribute to premature patient
discharge; (3) the role played by hospitals and by physicians in issuing formal
or informal denial notices; (4) whether recent HCFA instructions and subsequent
PRO reviews of notices are bringing about adequate corrective action; and (5)
the role of  consumer groups and senior citizen organizations in beneficiary
educat i on and advocacy.

Representatives of 48 PROs were contacted , either in person or by telephone.
addition , a number of interviews were conducted with hospital staffs and
associations beneficiary advocate groups, providers of services to senior
citizens as well as with individual beneficiaries. Field work                      for    this
inspection was done during the period of August to October 1985.

This inspection     is closely tied       into the
                                             inspection of premature patient
discharge now being    carried out by the Office of Analysis and Inspections
Region V.
                                                           , "





FINDINGS

    Until Recently Inappropriate Patient Denial Notices Were Common


    The PROs reported that prior to the May 1985 issuance of HCFA                  review and
    corrective action instructions, hospitals did not use a common                 format for
    issuing patient denial notices. Failure to conform to the PPS regulatory
    requirements was widespread. Some of the more common deficiencies were:


           Indicating that Medicare          restricts the number   of days a patient can
           stay in the hospital;


           Indicating that Medicare or the PRO, rather than the            hospital itself
           determi nes when a patient        can be di scharged from acute care;
           Failing to properly notify patients of              theirappeal rights      or
           furn i sh the pat i ent wi   th   the name and phone number of the PRO so that
           an appeal could be made if necessary;

           Failing to include the   actual date           the patient
                                                              becomes liable for
           inpatient charges (starting the third day after patient receipt of the
           not ice);   and

           Failing to include a statement that              any monies   collected by the
           hospital will be refunded if a finding is subsequently made that the
           patient required continued inpatient care.

    Nei ther HCF A     nor the PROs, however   conducted a systemat i c survey to
    actually    measure the extent of the problem or provide a breakdown of the
    specific    kinds of deficiencies that existed prior to May          1985.
                                                                       However the
    majority    of PROs contacted during this inspection were aware that problems
    relating    to the issuance of formal patient denial letters did indeed exist.
    Seven of the PROs, in fact , described it as a major problem , while only nine
    stated that it was not a problem at            all.
    Hospitals are Taking Corrective Action


    In May 1985 HCF      A issued instruct i on 1M 85- 3 " PRO Man itori ng of Hospital
                                          1I This instruction set out steps for
    Notices for Denial of Continued Stay.
    PROs to follow to review all notices issued by hospitals , provide comments
    to the hospitals to correct those that are not appropriate, and set up a
    monitoring system to insure that these deficiencies are corrected.

    Nearly all of the PROs contacted felt that the recent HCFA instructions have
    resulted in appropriate action to correct problems identified with formal
    written patient notices. As one PRO noted we caught a lot of problems
    with the notices when we did the review of all of our hospitals. We are
    sending these back and telling the hospitals to do the notices correctly, in
    conformity with the HCFA       regulations.
                                            We anticipate no trouble in getting
    the corrections made.
As the following chart shows , of the 41 PROs who responded to this question

most now report an improvement in the written notification process:


                                                               Number of Sample

              Comment                                           PRO Respondi ng
Notices were a major problem , now corrected

Not ices   were a mi nor   prob 1 em , now corrected
Some improvement noted , but st ill a       mi nor prob 1 em
Not ices were never a prob 1 em at all

                                          Total Responding


Receipt of Denial Notices Upsets and Confuses Patients


Hospital UR coordinators and PRO staff                  as well as senior advocate
organi zat ions, report that pat      i ents are frequently upset           and often confused

services   ll
by receipt of denial notices.
             and " formal
                                      References to II responsibility for payment of
                                    determination of medical necessity and
appropriateness " can be disturbing to patients, especially those believing
they should be allowed to remain in the hospital. Moreover , respondents
feel that the notices do little to clarify what is now a patient'
responsibi ity under PPS. Further confusion results from patients receiving
noticesafter they have been discharged , or in some                   cases notices going to
family members after the patient has died. HCFA                       has   tried to word the
notice clearly and simply, but respondents
improvements can be made.
                                                                 in    this inspection say
PROs Report No Problem Implementing HCFA Instruction IM 85­


None of the PROs contacted reported any             difficulties in implementing the
HCFA i nstructi ons. The PROs feel that the acti on steps requi red by 1M 85­
do deal adequately with the problems of written notices. li The instructions
required a lot more work from us , but we had no problem in implementing
them " was a typical response. A few PROs reported some minor difficulties
in getting hospitals to understand the role of the PRO; namely, that the PRO
is only involved in the initial denial notification process when the
hospital and physician disagree.

The American Medical Peer Review Association (AMPRA) in a      letter to HCFA
dated July 29, 1985 raised several concerns about the HCFA procedures. The
most  important of these dealt            with the
                                            need for clarification of the
authority of hospitals to issue, and PROs to review , pre-admission denials.

As of late October , HCFA had not responded to this               concern.
                                                               Pre-admission
denials are made by the       hospital
                                  either on the basis of its own utilization
review criteria or in anticipation of prior authorization review by the PRO.
Usually, there is not a formal written notice to the                   patient.
                                                                  PRO review
under such circumstances could be quite difficult. It is anticipated that
HCFA will issue clarifying instructions dealing with review of pre-admission
denials.
Informal Discussion, Not Formal Denial Notices, is the Usual Prelude to

Premature Di scharge
Most of  the time, discharge from the hospital follows an informal
conversation between the patient and the physician during which the
physician states that continued acute care is not      necessary.
                                                                Patients or
their families usually accept this decision and make   arrangements for any
needed post-acute care. Formal denial     notices are issued  only when the
hospital anticipates a problem because a patient might stay beyond the time

that acute care is necessary.


PROs and other respondents feel that when premature hospi ta 1 di scharge does
occur, it  is more likely to follow informal patient- physician discussion
rather than when a written notice has been     issued.
                                                     Before a notice can be
issued both the   hospital utilization review committee and the attending
physician have to agree that the patient is ready for discharge. If the
attending physician does not agree, then the PRO has to review the case and
concur or not concur with the hospital' s decision. The checks and balances
involved in these steps provide a degree of protection to the patient that
is not present in the more informal patient- physician dialogue that precedes
most discharges. PRO staff and some other respondents feel that patients
usually leave the hospital when they are asked to, without protest and
without appeal. The formal notice, on the other hand spells out the
patient'     right to reconsideration    of the   decision. In     most cases, a
patient'   s protest will trigger the issuance of a written   denial.
Moreover , improper and i nappropri ate reasons for di scharge are more 1 i ke
to be conveyed as a        part of
                                 informal discussion than through a formal
notice. The  physician may say, " Mrs. Jones, we are going to discharge you
                                                               , II but no such
tomorrow because Medi care won t pay for your care any 1 anger
statement appears in the pat i ent record. Occas i ona lly, PROs fi
statements to the effect that II patient was di scharged because DRG days were
used Up ll in medical records, but this is not common. When such statements
are found they should trigger a review by the PRO.

Because of these factors, some respondents feel that formal , wri tten not i ce
should be given to all patients at least 24 hours before their discharge.
Such notices would inform patients of the reason for discharge, discu
arrangements for discharge planning and follow-up care, and set forth their
appea 1 ri ghts   and procedures.

Other respondents, however , point out that issuing such a notice just prior
to  discharge could " stir up " patients who properly should be discharged.
Patients might try to use the appeals mechanism to buy time - extra days in
the hospital-while their appeal is pending. Giving information on appeals
to patients-at the time of admission rather than discharge might alleviate
this potential problem.     HCFA has, in fact , restated the responsibility
process in an October 25, 1985 transmittal. Even so, respondents feel that
more beneficiary education should be carried out.
                                            ; "                          , "





There is a Hi gh Level of Mi sconcepti on About PPS and Medi care Coverage;
There is a Major Lack of Quality Educational Materials

Beneficiaries and sophisticated        providers alike indicate that there is a
high level of misinformation about Medicare coverage in general and
specifically about PPS. Efforts have been made by many organizations,
including senior citizens and patient advocacy groups to provide
information about hospitalization under PPS, but more needs to be done. The
PROs and other informants indicate that the biggest need is to have
information on patients rights , benefits and responsibilities , including the
appeals process, set out in a simplified format that could be given to all
Medicare beneficiaries or their families upon admission or before admission
for an elective procedure. Material               for general distribution is             less
effect i ve,   since peop 1 e often do not read it unt    i 1 there is urgent     need.

Physicians also have many misconceptions about           PPS. Physicians        themselves,
as well as PRO staff and others, stated             The most significant
                                                        this.
misconception is a lack of understanding that physicians are solely
responsible for decisions concerning admission and discharge of patients,
and should not abrogate that responsibility to the hospital or to any other
entity. As the medical director of one of the PROs put it the PROs are
the advocates for patients. Physicians need to know that if they feel they
are being pressured they should let us know. Information about PPS
responsibilities needs to go into the medical professional media.


   number of senior citizen groups, such as congregate and home delivered
meal sites, senior citizen centers and adult day treatment centers , are also
anxious to      provide educational    programs on Medicare as a           part of their
serv ices. Many respondents commented that more shou 1 d be done to encourage
cooper at i on   and
                  commun i cat i on between HCF A       and
                                                    programs funded by the
Administration on Aging.

Some efforts      are being   made by HCFA and       other organizations         to   provide
consumer information on PPS.

The HCFA       Office   of Beneficiary Services issues on                 monthly basis
 Medi care/Medicai d Notes.  These notes contai           factual
                                                           information about
the program thought to be useful to benefi         ci aries.
                                                     They are di stri buted to
news media and various organizations for use in publications distributed to
beneficiaries. The May 1985 issue, entitled " Medicare s Prospective Payment
System - What it Means          and
                                What it Does             Not
                                                     Mean II had             the
                                                                       largest
distribution of any of the " Notes.    In addition to regular channels , this
issue was sent to the Administration on Aging for distribution to the Area
Agency on Aging network. This issue tried to dispel such myths as " Medicare
is orderi ng pati ents out of hospital s          Medi care hospi tal   reimbursement has
been cut back"          and " that quality of care to           Medicare patients
declining.
The American Association of Retired People (AARP) has just issued (October
1985) a booklet on PPS called " Knowing Your Rights. This material provides
a basic description of PPS from the consumer s viewpoint. There is detailed
coverage on    the role of the PRO and a          section on the appeals process
entitled " How   to protect your right      to the care you need.        A list
of the 50 PROs and thei r phone numbers is gi ven and benefi ci aries Bre tol d
to contact PROs if they have received a denial notice and feel that they
have been den ied coverage prematurely or that they requi re further
treatment. The AARP is planning to distribute this booklet to each of its
members and make it available to hospitals and other agencies on          request.
 HCFA also publishes a pamphlet entitled " Your Right to Appeal Decisions on
 Hospital Insurance Claims.        This pamphlet deals with retrospective denials
. on the grounds of coverage. It does not cover problems of pat i ents who are
 st ill in the hospi ta 1. The HCF A " Med i care Handbook" is st ill the standard
 explanation of benefits. Recent editions cover changes resulting from PPS.
 But revised handbooks go only to a small percent of Medicare beneficiaries
                                        total).
 (about 3. 5 mi 11 i on of the 35 mi 11 ion
The California PRO       has   written to each member             of   the California
Congressional and State      legislative
                                       delegation urging their support to
insure that Medicare beneficiaries and the general public understand that
 Medi care s efforts to curb unnecessary hospital i zat ions shou 1 d not result
in a hospital'   s failing to provide medically necessary care.         The PRO
enclosed   an article  about PPS     and quality of care    concerns for the
legislators to disseminate to their constituents.

The AARP booklet    several Congressional hearings            and other sources have
begun to    publicize the role of the PRO as                    possible source for
beneficiaries to take their appeals. This     development has raised concern on
the part of some PROs and HCFA      staff.
beneficiaries as the entity which would
                                              Although PROs could be viewed by
                                                    resolve     any complaint about
Medicare, they are obviously not staffed or          funded       play such a role.
For this reason , HCFA deliberately did very little until recently to educate
beneficiaries or the general public on the role of PROs. PROs were seen as
a contractor to HCFA to carry out specific review functions.             This initial
view has been changing, however , and the PROs have recently             been getting
increased visibility.

Respondents in this inspection supported publications such as those of . HCFA
and the AARP. Thei r    further
                              di ssemi nat ion is to be encouraged. However
respondents also     feel that general distribution publications do not
substitute for information given to the    patient " on the spot " either at
admission or at the time of discharge from a hospital.

In the past      hospitals had an incentive to help patients appeal denial
notices. Under PPS,       the burden of submitting appeals has shifted to
patients and their   families.  This change makes it far more important that
clear , detailed information on appeals be readily available.
Consumer Representatives Have the Potential for More Active Roles on Boards

of Peer Review Organizations


Several PROs have added consumer representative to their boards in the past

several months. Most      of   these consumers are active in the American
Association of Retired Persons or one of its state  affiliates.   Currently,
the  consumer representatives    are collecting  information and orienting
themselves to PRO functions and activities. Active programs of assistance
and education for beneficiaries are being planned but have not yet been
implemented. Board members are surveying beneficiaries and looking into
specific complaints that have been submitted. Based on this research , they
will  formulate programs for developing beneficiary education and appeal
rights, participating in PRO review of quality of care, and providing more
explicit assistance to beneficiaries following their hospital discharge.

Consumer participation   in PRO activities is currently limited both in
numbers of PROs participating and in scope of activities. PRO directors,
however , feel that consumer board members offer high potential for helping
to alleviate quality of care problems.

HCFA has been informally working with AARP to develop a national       training
program for PRO board members. This   training program would stress the     role
of board members in helping to insure quality of care.

There is no HCF A or Congress i ona 1 mandate for PROs to have consumer members
on their  boards.    Some PROs will not allow such representation or any kind
of " outside " training such as that proposed by AARP.
Many Beneficiary Complaints Concern Inadequate Discharge Planning and

Fa II ow-up Care
Many beneficiary complaints sent to HCFA     Congress, the PROs and other
sources actually concern inadequate di scharge p 1 ann i ng and sub-acute care
fo 11 owi ng di scharge. When inadequate arrangements are made for post
hospital care, some patients will end up back in the hospital. In one case
referred to HCFA from the mid- West, a patient was readmitted to the   hospital
four times    within 6 weeks because of poor discharge pl anning by that
hospital.     The hospital failedto describe the difficult and combative
nature of the patient because it knew nursing homes would not accept such a
patient. Absent this description , nursing homes accepted him for a short
time, then returned him to the hospital. In commenting on this case the
HCFA regional office said that lI extended ambulance rides and subsequent
return to the hospital for readmission were the direct result of poor
discharge planning on the part of the hospital -- an accredited facility,
the hospital is responsible for discharge planning. In this case, calls
were made to       the
                   nurs i ng home to reserve beds; however , the pat i ent' s
behavior and condition were not adequately explained.      The PRO followed up
the case by tak i ng correct i ve act i on with the hospital. Poor di scharge
planning is felt by many respondents to lead to subsequent readmission or
even to the death of patients. Discharge planning is a critical factor
affecting the well- being of patients and their overall quality of care.


This particular case, and others like it , come to the attention of HCFA and
the PRO because the beneficiary s family documented the problems in writing
and enlisted the assistance of a local patients ' advocate organization.
The relationship of PPS to discharge planning is now           getting
                                                                  attention
within the    profession.The Society for Hospital Social Work directors of
the American Hospital Association is holding a series of conferences around
the country on the theme " How Discharge Planning Works - and Can Work for
You - Under Prospective Payment.    As a part of their statement on discharge
planning, this    group stated " Social workers must view with alarm the
currently ri si ng pressures for hurried , depersonal i zed transfer of pati ents
out of acute care hospitals as a part of the thrust for cost-effectiveness.
Existing criteria for determining levels of care by bodily needs alone are
inadequate and often misleading.


PRO Review is Not Adequately Targeted on Patient Discharge or Discharge

Pl anni ng

Qual ity of   care is supposedly reviewed by PROs whenever they review    records
for  admissions, DRG validation   or any other       purpose. Most cases of
premature discharge, however , come to PRO attention         only upon review of
patients who are readmitted to the same hospital within seven days from the
first discharge. A patient who is readmitted after seven days , or is not
readmitted at all, may still suffer because of premature discharge or lack
of adequate discharge planning. Unless a complaint is filed by a patient or
a patient' s representative, however , this lapse of care will probably go
unnot iced.

Some PRO staff , physicians and others feel that additional reviews should be
carried out by the PROs in order to plug this gap in quality of care review.
There are several variations of review that potentially could be performed
but are not now. These    include (A) targeted patient discharge review;
(B) concurrent patient discharge review; (C) day-of- discharge review; and

(D) review of discharge planning. A more explicit focus on review              of
discharge and discharge planning wouldgreatly reduce the incidence             of
premature di scharges and inadequate di scharge pl anning.
Such reviews should not be viewed as adding additional onerous requirements
on the PROs or on hospitals. Many hospitals will be putting more resources
into discharge planning because it is in their self interest to do       so.
                                                                        This
is  especially so    asthey move towards horizontal expansion      taking on
services such as nursing homes, hospice and home health agencies.

An inquiry was made to the Joint Commission on Accreditation of Hospitals to
obtain results of survey findings concerning hospital discharge planning.
The results of this are shown in the chart    below.This shows that at least
four of the survey elements pertaining to discharge planning have negative
findings in ten percent or more of the cases:




                                     10­

                                                                             " %




                                                           1983         1984
Total Numbers Survey Reports Analyzed                      1797         1472


Medi ca 1   Record Serv ices
Does the clinical resume contain at least the condition               140*
 of the pat    i ent on di scharge?
Does the clinical resume contain at least pertinent                   357*
 instructions for further care (e.g. , physical activity
 limitations, medications, diet)?


Do nursing department/service entries in the patient'
 medical record include a final nursing progress note
 reflecting the patient' s status for transfer within
 the hospi tal and/or di scharge from the hospi ta 1 ?

Do nursing department/service entries in the patient'         40
 medical record include an indication of the patient'
 or family s understanding of instructions given to
 patients who are discharged from the hospital on
 nurs i ng care regiment?

Social Work Services


Do the social work services policies and procedures
          66 4

 relate to consultation and referral procedures?


Do the social work services policies and procedures

 relate to the role of the social work department/

 serv i ce in di scharge p 1 ann i ng.

Nursing Services
Does the written nursing care plan include consi­
           247 14    221
 deration of patient education and patient/family

 knowledge of self-care?


Does the written nursing care plan include nursing
          429 24    469
 measures that will facilitate the medical care pre­
 scribed and that will restore, maintain , or promote
 the patient'    s well- being?




                                         11­

                                                                      ll %       ll %




      Ut i 1 i zat i on Rev i ew

      Does the utilization review plan include a mechanism

       for provision of discharge planning?


      Source:      JCAH Aggregate Survey Data (ASD)

      * Data not accumulated into JCAH system until April     1984.

10.   Physician Decisions Are Not Usually Challenged

      Sen i or   advocacy groups, some PRO staff and others stressed the reluctance of
      beneficiaries to challenge        the
                                      decisions of          their physicians or the
      information given to them by hospital staff or          others. In many cases
      beneficiaries cannot read or understand the information given to them , yet
      are very reluctant to admi t thi s or to ask questions. As one provi der at a
      neighborhood clinic put it " Elderly patients are reluctant to make demands
      on the system. It is a matter of pride with them. They do not realize that
      they are entitled to good health care and that Medicare is not welfare.
      Another respondent, a senior activist herself , stated lI older p atie nts do not
      understand the process, are intimidated by the physicians and everyone else
      in the system and simply won t speak up about their       rights.  Someone needs
      to speak for them!"

      Nearly all of the senior advocate group representatives and many of the PRO
      staff agreed with these sentiments. At a time when patient assertiveness
      essential        the facts are that
                                       patients will seldom challenge those in
      authority.




                                              12­

CONCLUSIONS

Written denial notices   allow hospitals to terminate acute care benefits to
Medicare beneficiaries. However, only a small number of discharged patients
actually receive written         notices.
                                   Current HCFA procedures for issuing notices
and for their review by the PROs appear to provide adequate safeguards to
patients. Problems  which did exist in the content of notices have          been largely
eliminated with the issuance of new HCFA procedures in May 1985.

This study indicates that cases of premature hospital discharge usually do not
occur when a formal den i a 1 notice has been      issued.
                                                       When a case of premature
discharge is identified , it more likely follows an  informal discussion between
the physician and his patients or their         families.
                                                     During this discussion , the
physician is likely to give as a reason for the discharge that DRG days have
been used up or that Medicare will not pay any      longer.
                                                        Notations to this effect
occasionally appear in medical records, resulting in corrective action by the
PROs.   More often, however      there is        no record of verbal
                                                                  commun i cat ion s
concerning patient discharge. A             written
                                              notice is     not issuedunless the
hospital initiates the discharge, or the patient complains.

Unless the patient is readmitted within seven days, cases of premature discharge
in the absense of a written notice or other record are difficult to identify.
For this reason , some of the PROs and patient advocate groups have urged that
written notification be issued         for all discharged patients, that the       notice
spe 11 out an appeals procedure and that it be subject , under      some ci rcumstances,
  . review by the PRO. An expanded review role by the PRO           covering discharges
and discharge planning has also been advocated.

Lack of knowledge about PPS provisions is widespread. Virtually all          respondents
urge education campaign       covering providers as well      as beneficiaries.       This
campaign would encompass many         facets,including articles in the professional
medi a, Congress i ana 1 educat i on of constituents, and benefi ci ary i nformat i on not
only in hospitals, but in any other location where senior citizens gather or
receive services. Coupled with increased vigilance on quality of care review by
the  PROs, educational campaigns would help resolve premature discharge and
qua 1 i ty of care prob 1 ems.

Social Security also plays a role in providing information about Medicare as
well as in determining eligibility. The    SSA District Offices are the focal
point for beneficiaries to get an explanation of their Medicare benefits and to
get answers to questions they may have, including questions on denial notices.
HCFA staff feel that SSA is not giving these responsibilities enough attention.
For example, they have not been made a performance element for evaluating the
management of a      district office.There is need to update and give higher
priority to a   memorandum of understanding between HCFA and SSA concerning
beneficiary services activities. 

In the past HCFA has been very careful not to intrude or gi ve the appearance of
intruding in the physician-         patient relationship. This has certainly been
appropriate.   But a balance must be struck. Not intruding can also     give  the
appearance of not caring, of condoning lapses        in quality of care.
                                                                    HCFA and HHS
appear now to be leaning too far on the side of not providing enough information

to beneficiaries.

                                              13­
                                         RECOMMENDATIONS



The OIG recommends that HCFA


    INITIATE REQUIREMENTS to insure that hospitals provide patients , at the time
    of their admission,  with complete information on Medicare requirements for
    hospital admission and       discharge.
                                        This material should cover such areas as
    hospital admittance procedures, covered and non-covered services , discharge
    decisions          and patient appeal rights.          While many hospitals   currently
    furnish such information , there is no uniform set of requirements to date.
    HCFA should determine how best to implement - this new requirement and report
    results to the OIG no later than March 31 , 1986.

HCF A   Comments

HCFA agreed with this recommendation and has initiated action (A) requiring that
hospitals furnish patient such a statement of appeal rights upon admission to
the hospital and (B) to require that PROs monitor hospitals to assure that this
is done.

    DEVELOP MATERIALS that would clearly and explicitly                inform physicians of
    their responsibilities under PPS, including the fact that they have the sole
    responsibility for decisions about the admission and discharge of patients.
    Instruct carriers and           fiscal
                                    intermediaries to issue special reminders of
    PPS physician responsibility, and request PROs to emphasize it in newsletters
    distributed to the provider community. Provide similar material to members
    of hospital boards of trustees.

HCF A   Comments

HCFA did      not respond         to this recommendation   and the OIG would urge that
additional steps be taken             to inform physicians and other providers of their
responsibilities under PPS.

    COLLABORATE WITH APPROPRIATE OHDS STAFF OFFICES and wi th the Admi ni strat ion
    on Agi ng to develop materi a 1 s and strategi es for increased educat i on and
    information about hospital stays for Medicare             beneficfaries.
                                                                       This should
        include:
             Steps to      develop and issue precise, clear ,    and   readable educational
             literature informing beneficiaries of their coverage, rights,
             priviledges and responsibilities under PPS. Such materials should be
             developed in collaboration with groups, such as the American
             Association of Retired Persons, and build on materials that already
             exist. A high priority should be given to educational packets provided
             to patients and their families upon admission to the         hospital or prior
             to admi   ss i on.

             Greater utilization through OHDS of the " Aging Network" as a         means to
             reach Medicare beneficiaries and get information to them.


                                                14­
            Increased use of volunteers who could serve as advocates for Medicare
            patients before,  during, and after     hospitalization.
                                                                 OHDS should take
            the  lead in disseminating information about model volunteer programs
            already established by some area agencies on aging.

HCF A   Comments

HCFA responded by describing a number of collaborative actions which are being
initiated or are   underway to improve the education of beneficiaries about
hospital stays under PPS.

    WORK WITH SSA to insure that            appropriate informational materials are
    available for distribution to Medicare beneficiaries through Social Security
    district offices.           be
                        Steps should      taken to insure that Social Security
    staff have sufficient training to discuss Medicare issues with
    beneficiaries. A memorandum of understanding should be developed between

    HCF A and SSA to insure that these goals are met.


HCF A   Comments

HCFA agreed , and described steps being taken to strengthen communication with
beneficiaries at the district office (DO) level. HCFA agreed that a HCFA/SSA
Memorandum of Understanding would be helpful to promote a dileneation to
responsibilities for beneficiary education.

SSA Comments


SSA agrees with      the recommendation that       HCFA work with SSA    to insure that
information is available for distribution.         SSA listed a number of actions taken
over the past two years to achieve this.           SSA di sagrees that a foma 1 HCF A/SSA
Memor andum of U nders t an din g is needed.

    INSURE THAT ADEQUATE FOCUS is given to review of patient discharges by the

    PROs for the 1986- 1988 contract peri ad. The draft speci fi cat ions prepared
    by HCFA do provide for increased attention to discharge review. The final
    contracts should include some
    appropri ate:

                                            orall of the following elements
            Quality Screens      Apply generic quality screens to all cords
            reviewed , as stated in attachment 3 of draft PRO Scope-of- Work.
            Targeted Patient Discharge Review - Identify a sample of patients to be
           targeted for retrospective review of discharge similar to            the five
            percent sample of patients identified for admission review. The sample
            cou 1 dbe  random or se 1  ected from      among hi gh-ri sk pat i ents where
            premature di scharge is more 1 i ke ly to occur.
            Concurrent Patient Discharge Review - Undertake a review of a sample of
            hospitalized  patients slated for discharge.    Review notification of
            discharge, as above, or target a select group of patients at risk of
            premature di scharge.
                                            15­

            Day-of- Discharge   Review - Review the services and procedures rendered
            to an appropriate sample of patients on the        day of discharge
            conjunction with use       of quality screens to determine whether
            i nappropri ate acute servi ces were provi ded.
            Discharge Planning Review - Require a more explicit focus on review 

            discharge planning done by the hospital to insure that it is adequate.
HCF A   Comments

HCFA described a number of steps taken to focus PRO reviews of hospitals which
address the OIG recoommendations. HCFA , however       suggested deletion of
recommendation 5e     that a
                          finding of inadequate discharge planning would call
into question the conditions of participation
responsibility. The OIG
                                                              since this   is the that
                                 agrees with this suggestion , and is deleting
                                                                                  PROs

port i on of the recommendat i on.
    CONSIDER SELECTIVE REVIEW BASED ON DEATH CERTIFICATES. Several PROs have
    looked into performing a review , on a selective basis , of death certificates
    issued to recently discharged patients. By examining patient records for
    these cases  the PRO woul d determi ne whether premature di scharge or poor
    quality of care may have contributed to           the death.
                                                              The feasibility of
    requiring such a PRO review activity should be evaluated.

HCF A   Comments

HCFA agrees with this suggestion and considering instituting a study to expand

PRO review of deaths that occur shortly after discharge.





                                             16­

